        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report

The Department of Energy's Small
Business Innovation Research and
Small Business Technology
Transfer Programs




DOE/IG-0876                      November 2012
                                  Department of Energy
                                      Washington, DC 20585

                                        November 6, 2012

MEMORANDUM FOR SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's Small
                         Business Innovation Research and Small Business Technology Transfer
                         Programs"

INTRODUCTION AND OBJECTIVE

The Department of Energy's Small Business Innovation Research (SBIR) and Small Business
Technology Transfer (STTR) programs award grants to encourage scientific effort leading to the
application of new ideas and technology. The combined annual funding available for these two
programs grew from $116.8 million in Fiscal Year (FY) 2006 to $175.5 million in FY 2012. In
addition, the programs received $92 million in American Recovery and Reinvestment Act of
2009 funding. The Office of Science's SBIR/STTR Office is responsible for managing funds
from 12 of the 13 Department offices that contribute funding to the programs, with acquisition
assistance from the Office of Science's Chicago Office. In FY 2012, the Advanced Research
Projects Agency−Energy started an SBIR/STTR program that was not included in our audit
because of its brief period of operation.

In FY 2010, which was the focus of our review, the Department received approximately 1,800
applications for SBIR and STTR for regular funding announcements, and approximately 1,000
applications for the Recovery Act funding announcements. The Department established a merit-
based process for scoring grant applications to determine which were to be approved.

In our previous report on SBIR grants, Management Controls over Monitoring and Closeout of
Small Business Innovation Research Phase II Grants (OAS-M-08-09, July 2008), we pointed out
that there had been no resolution of questioned costs associated with the grants and that the
grants had not been closed out in a timely manner. Due to the issues identified in our prior audit
and the growth of the programs in recent years, we initiated this audit to determine whether the
Department had effectively managed the SBIR and STTR programs. Additionally, we reviewed
circumstances surrounding an allegation involving a potential conflict of interest.

RESULTS OF AUDIT

We found that the Department had not always effectively managed the SBIR and STTR
programs. Specifically, we identified problems with grant financial management and grant
award scoring. We also substantiated an allegation that potential conflicts of interest had not
been identified and properly mitigated. In the area of financial management, we found that:
                                                   2


    •   Grant closeouts continued to be an issue. Since our 2008 audit, the number of SBIR
        grants awaiting closeout for more than 3 years had increased significantly, from 84 to
        252. We also identified 12 STTR grants that had been awaiting closure for more than
        3 years. The Department had not received final financial status reports for 156 of these
        grants, despite the Code of Federal Regulations (CFR) requirement that grantees submit
        the reports within 90 days of the completion of the grant term. We found no evidence
        that Chicago Office officials had attempted to contact half of these grantees to request
        closeout documents, even though its closeout procedures called for sending a letter
        requesting documents 15 days after the end of the award term; and,

    •   The Department had not fully addressed prior concerns regarding questioned costs.
        Although the Chicago Office had resolved questioned costs identified in our prior audit,
        we found approximately $840,000 in additional questioned costs identified by Defense
        Contract Audit Agency (DCAA) audits or internal desk reviews that had not been
        resolved. Chicago Office officials told us that it was their position that these questioned
        costs could be resolved as late as during the closeout process. Yet, we found that some
        of these costs were identified as early as 2003.

A Chicago Office official told us the closeout backlog was due to an increasing workload and
insufficient resources. Additionally, in response to a 2009 DCAA inquiry regarding the status of
questioned costs from one of its 2006 reports, a Chicago Office contract specialist responded that
the costs had not been resolved because closeouts were a low priority. To their credit,
Department officials told us that they had taken a number of actions since the beginning of 2012
to address the timeliness of grant closeouts, including obtaining contractor assistance and
establishing a dedicated closeout team.

During our audit, we also identified an additional $534,000 in erroneous and unsupported costs
involving bid and proposal costs, costs not allocable to the grant, excess labor charges not in
compliance with Federal cost principles, and costs that lacked documentation. According to
grantees, these errors occurred because of a lack of awareness of certain provisions of the cost
allowability rules referenced in their award documents. In addition, some of the errors were the
result of clerical mistakes that resulted in erroneous reimbursement claims.

Delays in closing out grants increased the risk that grantees may be unable to locate records for
audit due to merger, bankruptcy or other change in organizational status. Without improving the
timeliness of grant closeouts and resolution of questioned costs, the Department may incur
unnecessary and unallowable costs. Additionally, in the event it is necessary to bring legal
action on a false claim, there is a 5-year statute of limitations for criminal actions and as little as
6 years for civil actions from the time the offense was committed. This is of concern because, as
of August 31, 2011, 78 of the grants awaiting closeout had been expired for over 5 years with 46
of them surpassing 6 years.

In addition to financial management concerns, we identified program issues related to potential
conflicts of interest and the award selection process. Specifically, we discovered:
                                                     3


      •     Two potential conflicts of interest. In the first instance, we substantiated an anonymous
            allegation that a topic manager responsible for reviewing and consolidating merit review
            scores of grant applications had co-authored, and jointly presented, a journal publication
            with an applicant;

      •     In another conflict discovered during our test work, we found that an individual
            responsible for reviewing grant applications for merit, a "merit reviewer," was an
            employee of a subcontractor listed on the grant application. In both cases, the
            individuals had the ability to influence the selection of grantees. Although Department
            officials were not aware of either of the potential conflicts until we brought the issues to
            their attention, they agreed that there were appearances of conflicts of interest in both
            cases; and,

      •     A number of errors and deviations from scoring guidelines during the grant selection
            process. The errors and deviations, however, had no material effect on the selection of
            applications to be funded.

The problems we identified had not been detected by the Department. We noted that neither
topic managers nor merit reviewers were required to certify for each funding opportunity
announcement that they were free from conflicts of interest. Additionally, an SBIR/STTR Office
official told us that the scoring guidelines were just that, guidelines, and the topic managers were
not required to follow them. The lack of firm requirements in this area deprived the Department
of opportunities to prevent or detect the issues we discovered. As a consequence, it lacked
confidence that conflicts of interest were disclosed and properly mitigated, and that applicants
were treated fairly.

To improve the SBIR/STTR programs, we made several recommendations in the areas of
financial management and grant awards.

MANAGEMENT REACTION

Management generally concurred with our recommendations and provided actions that will be
taken to address issues identified in our report. The Chicago Office highlighted the progress it
has made to closeout expired grants and reduce its closeout workloads to a manageable level
through strengthened processes. In separate comments, an Office of Science official stated that it
is implementing a web-based system to manage its grant award process that will address our
concerns with reviewer conflicts of interest and scoring the applications under review.

Management's comments are included in Appendix 3.

Attachment

cc:       Deputy Secretary
          Associate Deputy Secretary
          Acting Under Secretary of Energy
          Director, Office of Science
          Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S SMALL BUSINESS
INNOVATION RESEARCH AND SMALL BUSINESS TECHNOLOGY
TRANSFER PROGRAMS


TABLE OF
CONTENTS

Grant Administration

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................6


Appendices

1. Objective, Scope and Methodology ...............................................................................8

2. Related Reports ............................................................................................................10

3. Management Comments ..............................................................................................11
THE DEPARTMENT OF ENERGY'S SMALL BUSINESS INNOVATION
RESEARCH AND SMALL BUSINESS TECHNOLOGY TRANSFER
PROGRAMS
Grant Administration   Small Business Innovative Research (SBIR) and Small Business
                       Technology Transfer (STTR) grants help small businesses fund the
                       application of new technologies. Based on the provisions of the
                       legislation creating each program and subsequent reauthorizations,
                       the Department of Energy (Department) provides funding in
                       phases. Phase I funding is intended to help recipients explore the
                       feasibility of innovative concepts, while Phase II funding supports
                       research and development efforts that often culminate in a
                       prototype product or process that can be demonstrated to potential
                       investors. Phase I grantees can receive up to $150,000, while
                       Phase II grantees can be awarded another $1 million. Each phase
                       involves a separate application process.

                       During our audit of SBIR and STTR grants, we identified issues
                       with financial grant management, including the timeliness of grant
                       closeouts and unresolved questioned costs; and program
                       management, including errors in grant scoring and potential
                       conflicts of interest that had not been mitigated.

                                             Financial Management

                       We identified financial management issues in the areas of grant
                       closeout and unresolved questioned costs. Regulations require
                       grantees to submit a financial status report 90 days after the
                       completion of the award term. Further, internal control procedures
                       call for reminding grantees of this requirement. We found that
                       grantees had not consistently submitted financial status reports as
                       required, and the Department had not consistently attempted to
                       contact grantees that did not submit required reports. We also
                       found that questioned costs identified by the Defense Contract
                       Audit Agency (DCAA) and internal reviews had not been resolved.
                       Finally, we identified other questioned costs during our site visits.
                       Control problems such as these can result in the inability to audit
                       costs or to recover amounts deemed unallowable.

Grant Closeout         The Department had not closed out 264 SBIR and STTR grants in
                       a timely manner. In fact, since our 2008 audit, the number of
                       SBIR grants requiring closeout for more than 3 years had grown
                       significantly, from 84 to 252 as of August 31, 2011. Additionally,
                       our testing revealed that 12 STTR grants were also waiting to be
                       closed out more than 3 years after the period of performance
                       ended.

                       Of the 264 grants, the Department had not received the final
                       financial status report for 156 of the grants. The Code of Federal


Page 1                                                                  Details of Finding
                   Regulations (CFR) requires grantees to submit a final expenditure
                   report within 90 days of the completion of the grant term. We
                   found no evidence that the Office of Science officials from the
                   Chicago Office had attempted to contact 74 grantees to request
                   closeout documents, even though its closeout procedures called for
                   sending a letter requesting documents 15 days after the end of the
                   award term. Furthermore, we found that 68 grantees had submitted
                   a final financial status report more than 3 years ago. Under the
                   document retention requirements of 10 CFR 600.342, these
                   grantees are no longer obligated to retain their documents unless
                   the Department had directed them to do so by the end of the 3-year
                   period. Thus, the Department had a 3-year window of opportunity
                   to review and close out SBIR II grants, should it need to request
                   supporting cost information from the grantee. We found no
                   evidence that recipients had been directed to retain documentation.

                   We also found that questioned costs totaling about $840,000 that
                   had been identified by audits conducted by DCAA and during
                   internal desk reviews conducted by the Chicago Office were
                   waiting for resolution as part of grant closeout. These audits and
                   reviews identified unsupported costs for direct labor, indirect labor
                   and cost sharing contributions; incorrect application of negotiated
                   indirect rates, overbilling of subcontract costs; and, inadequate cost
                   sharing. DCAA contacted the Department in 2009 inquiring about
                   questioned costs totaling almost $700,000 that it had identified
                   during a 2006 audit. A Chicago Office contract specialist
                   responded that the costs had not been resolved because closeouts
                   were a low priority. The Department did not contact the grantee to
                   discuss resolution of these costs until March 2012.

                   A Chicago Office official told us the backlog was due to an
                   increasing workload and insufficient resources. Department
                   officials told us that they view closeouts as a priority and have
                   made much progress to close out expired grants. To its credit, the
                   Chicago Office had recently taken a number of actions to address
                   the timeliness of grant closeouts, including setting aggressive
                   goals, obtaining contractor assistance for closeouts, and
                   establishing a dedicated closeout team at the beginning of 2012.

Questioned Costs   During our audit, we identified an additional $534,000 in
                   erroneous and unsupported costs incurred by three of the seven
                   grantees we reviewed. One grantee had relocated to new office
                   space and in the process had reportedly destroyed records
                   supporting about $524,000 in costs incurred. The approximately
                   $10,000 in questioned and unsupported costs at two other grantees




Page 2                                                               Details of Finding
                        were related to bid and proposal costs, costs not allocable to the
                        grant, excess labor charges that did not conform to Federal cost
                        principles, and costs in which receipts could not be provided.
                        Reportedly, the errors were caused by clerical mistakes and a lack
                        of knowledge of the cost allowability rules referenced in award
                        documents.

                        The lack of timely closeout increases the risk that grantees may be
                        unable to locate records for possible audit due to merger,
                        bankruptcy or other change in organizational status, or if the final
                        financial status report was submitted more than 3 years ago.
                        Additionally, in the event it is necessary to bring legal action on a
                        false claim, there is a 5-year statute of limitations for criminal
                        actions, and 6 years for civil actions from the time the offense was
                        committed. This is of concern because, as of
                        August 31, 2011, 78 of the grants awaiting closeout had been
                        expired for over 5 years, with 46 of them surpassing 6 years.
                        Without improvement in the timeliness of the grant closeout and
                        review process, the Department may incur unnecessary and
                        unallowable costs such as those we identified.

                                               Program Management

                        We identified program management issues related to potential
                        conflicts of interest and the award selection process. In Fiscal
                        Year (FY) 2010, the Department received 1,469 Phase I and 357
                        Phase II applications to the regular funding announcements, and
                        935 Phase I and 105 Phase II applications for the American
                        Recovery and Reinvestment Act of 2009 funding announcements.
                        The applications were generally scored by a minimum of three
                        independent merit reviewers. A topic manager reviewed the merit
                        reviewer comments and scores, and combined the information to
                        arrive at a total score. The total score was used to place the
                        application into a funding category.

Conflicts of Interest   We identified two instances where the appearance of a conflict of
                        interest had not been identified or mitigated. In one case, based on
                        an anonymous allegation, we found a Department employee had
                        served as a topic manager for six applications submitted by a small
                        business, despite a known relationship with the business.
                        Specifically, the employee and the applicant's President and Chief
                        Executive Officer had co-authored a journal publication and made
                        two presentations together at a conference, creating the appearance
                        of a conflict of interest. The employee had not disclosed the
                        potential conflict, which was the employee's responsibility
                        according to the Department's Merit Review Guide for Financial



Page 3                                                                    Details of Finding
         Assistance, because the employee believed the application's subject
         matter related to a technology different from the employee's
         involvement with the grantee. However, the relationship of the co-
         authors, gives rise, in our opinion, to a potential conflict as defined
         by the Department because topic managers are allowed to override
         scores, potentially influencing ultimate award decisions.

         In the second case, a technical merit reviewer was an employee of
         a subcontractor listed on the grant application reviewed. While
         this application was not funded, the appearance of a conflict
         existed because the reviewer had an opportunity to obtain funding
         for his employer. According to the Department's Merit Review
         Guide for Financial Assistance, reviewers must certify that they
         will not participate in the review of any financial assistance
         application involving a particular matter in which the reviewer has
         a conflict of interest or where a reasonable person may question
         their impartiality.

         The Department had not detected the above potential conflicts of
         interest because topic managers and merit reviewers are not
         required to certify that they are free from conflicts of interest for
         those applications they reviewed or scored for each funding
         opportunity announcement. Topic managers are advised of the
         requirement to disclose conflicts of interest, as outlined in the
         Department's Merit Review Guide for Financial Assistance, at the
         time they first become involved in the SBIR and STTR grant
         programs, but annual certifications are not required. During the
         selection process, the Department informs merit reviewers via
         email of situations that could constitute a conflict of interest and
         the requirement to provide immediate notification if a conflict
         exists. Further, the Department alerts reviewers to its assumption
         that there are no conflicts if they submit a review. Because merit
         reviewers have not been required to acknowledge they are free
         from or disclose possible conflicts of interest for each funding
         opportunity announcement, the Department could not tell if
         potential conflicts of interest were considered by those reviewers
         that did not self-report potential conflicts.

         Although Department officials were not aware of either of the
         potential conflicts until we brought the issues to their attention,
         they agreed that there were appearances of conflicts of interest in
         both cases. Unmitigated conflicts of interest in scoring grant
         applications could compromise the Department's ability to ensure
         that the selection process is fair and equitable.




Page 4                                                     Details of Finding
Selection Process   We noted errors in scoring grant applications in our sample of 52
                    applications. Specifically, we found:

                       •   Ten instances where applications had not been properly
                           scored by topic managers. The errors were caused by
                           scoring instructions that appeared to be confusing to the
                           topic managers based on the multiple ways they were
                           interpreted, or transcription errors;

                       •   Nine instances where topic managers had overridden merit
                           reviewer scores but had not provided a justification for
                           doing so; and,

                       •   Seven instances where the guidelines for calculating a score
                           had not been followed by topic managers and deviations
                           had not been explained.

                    The problems we identified had not been detected by the
                    Department. An SBIR/STTR Office official told us that the
                    scoring guidelines were guidelines, and the topic managers were
                    not required to follow them. However, the Department could not
                    ensure that applications were appropriately rated because it had not
                    required topic managers to justify or explain deviations from the
                    merit reviewers' scores.

                    While the examples above did not appear to affect the ultimate
                    decision as to whether or not the applications would be funded, the
                    lack of controls over scoring applications could lead to unfair
                    treatment of applicants. Officials told us they were in the process
                    of implementing a web-based review system that will
                    automatically check mathematical errors, ensure electronic
                    signatures are captured with reviews, eliminate transcription errors
                    for review scores, and provide a time/date stamp for actions.

                    Management informed us that it revised the scoring process and
                    topic managers are no longer allowed to override individual merit
                    reviewer scores. Instead, topic managers develop their own scores
                    based on the merit reviewer feedback. The topic managers are
                    required to justify instances in which their scores do not agree with
                    the consensus score of the reviewers. According to management,
                    SBIR/STTR Program Office staff check scoring forms to ensure
                    that they contain required justifications. Management actions, if
                    properly implemented, should address problems we identified
                    regarding topic managers' scoring of applications.




Page 5                                                               Details of Finding
RECOMMENDATIONS    To address the issues noted in this report, we recommend that the
                   Manager, Chicago Office, direct acquisition officials to:

                       1. Develop a process to ensure that grantees are contacted
                          after the end of the award term to request closeout
                          documents;

                       2. Ensure grantees are notified of document retention
                          requirements when contacted after the end of the award
                          term; and,

                       3. Make a determination regarding the allowability of costs
                          questioned in this report.

                   We also recommend that the Deputy Director for Office of Science
                   Programs direct the SBIR/STTR Office to:

                       4. Develop clear examples of ways that reviewers and
                          Department Program Officers can become conflicted and
                          develop a means for reviewers and Department Program
                          Officers to confirm they are free from conflicts of interest
                          for each funding opportunity announcement.

MANAGEMENT         Management generally concurred with the report's
REACTION AND       recommendations. The Chicago Office emphasized the priority
AUDITOR COMMENTS   given to closing out all its grants by highlighting the progress it has
                   made in the closeout of expired grants and its plans to reduce its
                   closeout workload to a manageable level. It also outlined several
                   plans to strengthen its closeout processes and improve timeliness.
                   Furthermore, the Office of Science stated that it is implementing a
                   web-based system to manage its grant award process. This system
                   will require reviewers to indicate that they do not have a conflict of
                   interest with respect to each specific application they review before
                   granting electronic access to the application for review. However,
                   the Office of Science disagreed with our recommendation to have
                   Program Officers provide a certification that they do not have a
                   conflict of interest with each application reviewed, because
                   reporting conflicts of interest is a requirement of employment.
                   While this may be true, providing a means for Program Officers to
                   consider whether conflicts of interest exist with each application,
                   such as through the web-based system being implemented, would
                   increase transparency in the selection process. Accordingly, we
                   modified our recommendation to remove the specificity of a
                   certification. Additionally, the SBIR/STTR Office has already
                   revised its scoring process to require justifications when reviewing
                   officials deviate from the consensus of reviewer scores.


Page 6                                           Recommendations and Comments
         Management's comments, included in Appendix 3, are generally
         responsive to our findings and recommendations.




Page 7                                                      Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department) was
              effectively managing the Small Business Innovation Research
              (SBIR) and Small Business Technology Transfer (STTR)
              programs.

SCOPE         The audit was performed between June 2011 and October 2012, at
              Department Headquarters in Washington, DC, and Germantown,
              Maryland; the Chicago Office in Argonne, Illinois; and, at seven
              recipient sites around the country.

METHODOLOGY   To accomplish the audit objective, we:

                   • Reviewed applicable laws and regulations, as well as
                     internal policies and procedures;

                   • Performed follow-up on the status of recommendations
                     from the previous Office of Inspector General audit of
                     SBIR Phase II grants;

                   • Reviewed the files for 29 grants completed in Fiscal Years
                     (FY) 2009 and 2010 to determine grant terms and the
                     extent of review by Chicago Office personnel in
                     administration of the awards;

                   • Reviewed files for 264 Phase II grants awaiting closeout
                     to determine whether the final financial status reports had
                     been submitted;

                   • Selected a sample of 52 applications that were submitted
                     for funding during FY 2010. This included regular and
                     American Recovery and Reinvestment Act of 2009 funded
                     awards. We reviewed the applications and the associated
                     reviewer comments to determine whether the applications
                     were reviewed consistent with the associated funding
                     opportunity announcement;

                   • Visited the sites of seven recipients and reviewed
                     supporting documentation for costs claimed by those
                     recipients to determine the allowability of costs; and,

                   • Held discussions with Department and grantee officials.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate



Page 8                                     Objective, Scope and Methodology
Appendix 1 (continued)

                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective. Accordingly, the audit
                    included tests of controls and compliance with laws and
                    regulations necessary to satisfy the audit objective. In particular,
                    we assessed compliance with the GPRA Modernization Act of 2010
                    and found that performance measures had not been established.
                    Because our review was limited, it would not necessarily have
                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We utilized computer-processed data to
                    identify the populations of grant awards and applications fitting
                    different attributes so that we could select samples from them.
                    Based on our comparisons of computer-processed data to
                    supporting documentation, we determined that the data was
                    sufficiently reliable for the purposes of our report.

                    We held an exit conference with the Chicago Office on
                    October 17, 2012. The SBIR/STTR Office waived an exit
                    conference.




Page 9                                          Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

  •   Audit Report on Management Controls over Monitoring and Closeout of Small Business
      Innovation Research Phase II Grants (OAS-M-08-09, July 2008). The audit found that
      the Office of Science's Chicago Office had not taken action related to resolving
      $1.2 million in questioned costs from a 2001 audit, as well as issues related to timely
      grant closeout. Specifically, the audit found that the Chicago Office had not completed
      action on or was unable to provide files for 87 percent (73 out of 84) of Small Business
      Innovation Research Phase II (SBIR II) grants with completion dates exceeding 3 years.
      Since the 3-year document retention period had expired, untimely closeouts jeopardized
      the Department of Energy's (Department) ability to audit the costs. The audit also
      identified $27,610 in questionable costs and $749,749 in unsupported costs during testing
      of closed grants.

  •   Audit Report on Administration of Small Business Innovation Research Phase II Grants
      (DOE/IG-0521, August 2001). The audit found that the Department had not
      appropriately verified that all costs claimed by SBIR II grantees were, in fact, allowable
      and used for developing the specific innovations described in the relevant grant
      documents. The Department generally limited its cost reviews to pre-award evaluations
      of the costs proposed in the applications submitted by grantees; it did not place sufficient
      emphasis on post-award reviews of actual costs. As a result, the audit found that the
      Department reimbursed grantees for questionable costs. For example, three grantees did
      not provide any support for about $2.4 million in claimed costs. Further, the Department
      did not verify that grantees fully contributed their portion of cost sharing, which was a
      requirement of the grants. It was noted that 10 SBIR II grantees reported providing
      $2.4 million less in cost sharing than required by the terms of the relevant grant
      agreements. The audit also reported that grantees were not submitting final cost data
      within required time frames, and grants were not being closed out in a timely manner.




Page 10                                                                         Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
                                                                    IG Report No. DOE/IG-0876

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit or inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
